<html>
<title> - ZIMBABWE AFTER MUGABE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                         ZIMBABWE AFTER MUGABE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 28, 2018

                               __________

                           Serial No. 115-114

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        
        
        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-825 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                      
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Charles A. Ray (former U.S. Ambassador to Zimbabwe)     7
Ms. Elizabeth Lewis, regional deputy director, Africa Division, 
  International Republican Institute.............................    16
Mr. Ben Freeth, executive director, Mike Campbell Foundation.....    25
Chipo Dendere, Ph.D., visiting assistant professor, Amherst 
  College........................................................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Charles A. Ray: Prepared statement.................    12
Ms. Elizabeth Lewis: Prepared statement..........................    19
Mr. Ben Freeth: Prepared statement...............................    27
Chipo Dendere, Ph.D.: Prepared statement.........................    39

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Congressional Statement on the Importance of Property Rights in 
    Zimbabwe, by Craig J. Richardson, Ph.D.......................    64
  The Campbell Case Timeline.....................................    72


                         ZIMBABWE AFTER MUGABE

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:01 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order, and welcome to 
all of you.
    Today's hearing has been a long time in the making. For 
some 37 years, since the birth of modern Zimbabwe, Robert 
Mugabe has dominated the political landscape of this resource-
rich and promising country: First, as Prime Minister, then as 
President, and always as strongman.
    It was a 37-year rule which sadly betrayed the post-
colonial aspirations of freedom, one which was marked by 
misrule, mismanagement, and mistreatment of Mugabe's fellow 
citizens.
    For many Zimbabweans, and for many years, envisioning a 
Zimbabwe without Mugabe was considered a fool's errand. 
Elections, some more flawed than others, had come and gone, 
opportunities for reform fallen by the wayside. And through it 
all, the domineering presence of one man haunted the dreams of 
his countrymen.
    Then in a matter of weeks, culminating last November, the 
landscape changed. The once invincible ruler in October 2017 
set into motion a series of events which left him not only 
ousted from the Zimbabwe African National Union-Patriotic 
Front, or ZANU-PF, but pushed off his Presidential perch.
    The drama began in earnest when Mugabe sought to prop up 
his wife Grace's standing as his designated successor by 
ousting one of his two Vice Presidents, Emmerson Mnangagwa, 
presumably to elevate his wife to the position, while 
simultaneously moving against Mnangagwa's allies in the 
government and in ZANU-PF, promoting a younger generation 
allied with Grace.
    Mnangagwa was part of an older faction of ZANU-PF, the 
generation that fought for liberation with roots and strong 
connections in the military. As Rhodesian Bush War veterans and 
political survivors, Mnangagwa and his comrades could draw upon 
a reservoir of experience and cunning. They would not be so 
easily pushed aside.
    While Mugabe sought to tighten the reins of control in 
favor of his wife and her allies, the other Vice President and 
head of the Zimbabwe Defence Forces, Constantino Chiwenga, made 
a bold statement on November 13, and I quote, ``. . . matters 
of protecting our revolution, the military will not hesitate to 
step in.''
    This was declared treasonous, but before Chiwenga himself 
could be arrested, the Zimbabwe Defence Forces did, in fact, 
step in and confine the long-serving President to his quarters, 
while taking control of key points around the country.
    What followed were spontaneous popular demonstrations 
against Robert Mugabe, indicating that the spell had been 
broken. ZANU-PF convened a meeting which declared Mnangagwa to 
be interim leader of the party. And in the face of impeachment 
proceedings against Mugabe, the 93-year-old President 
reluctantly stepped down, allowing Mnangagwa to assume the 
vacancy.
    This series of actions preserved the veneer of 
constitutional process such that neither our country nor the 
African Union could label the events that took place a coup. 
Indeed, if it were a coup, it was a popularly supported one and 
one which subsequently received high court ratification.
    So where does that leave us? Who is Emmerson Mnangagwa, the 
man who was sworn in as Zimbabwe's President on November 21?
    Critics have called him the ``crocodile'' and recall his 
role as Mugabe's right-hand man and confidante, including 
during the brutal period in the early 1980s, when in the newly 
independent nation, Mugabe waged an internal campaign of 
repression against fellow revolutionary leader Joshua Nkomo, 
killing thousands of ethnic minority individuals who were 
followers of Nkomo.
    During this time, Mugabe was assisted by military advisers 
from East Germany and North Korea, and his Minister of State 
Security, one Emmerson Mnangagwa.
    Others more charitably admit that Mnangagwa was, indeed, 
once the crocodile, but maintain that he has changed, 
undergoing a religious conversion to evangelical Christianity. 
Indeed, his rhetoric since acceding to power has been 
reassuring, stating that he will restore democracy, rule of 
law, economic prosperity, and trade, while addressing endemic 
corruption.
    On the issue of land tenure, he said he would end the 
seizures of property that Mugabe had used to punish enemies and 
reward cronies.
    So they stand at a crossroads, perhaps facing a once-in-a-
lifetime opportunity where Zimbabwe can chart a new course. 
Yet, we cannot forget and cannot be Pollyanish about it, nor 
disregard the wise words of Pete Townshend, who once said: 
``Meet the new boss. Same as the old boss. We won't get fooled 
again.'' Hopefully, none of that will be true.
    On the issue of land seizures, for example, one notes that 
the newly retired general, as of December 28, 2017, the new 
Vice President, Constantino Chiwenga, who issued the treasonous 
challenge that led to Mugabe's ouster, is alleged to be a 
beneficiary of Mugabe's past largesse with other people's land. 
This is perhaps something which all of our witnesses today 
might want to speak to and clarify.
    Indeed, as we attempt to read the tea leaves and discern 
what is in the future, we will be assisted by a stellar panel. 
While the State Department is unable to send a witness due to 
the immediacy of issues concerning the budget and Secretary of 
State Tillerson's impending trip to Africa, we have with us a 
former Ambassador of the United States, a very distinguished 
one at that, to Zimbabwe, as well as one of the key 
implementers of our democracy promotion policy in Zimbabwe.
    We also have two Zimbabweans with us who are extremely 
well-versed and involved in the contemporary events in the 
country.
    Today's hearing will look at the prospects for true 
democratic and governance reform, as well as the potential 
restoration of the rule of law. We truly hope that the arrival 
of a new government signals an opportunity for establishing a 
mutually beneficial relationship between the United States and 
Zimbabwe, and as the near future unfolds, events will allow us 
to reevaluate some of the sanctions that were imposed during 
the Mugabe years.
    I would like to yield to my good friend and ranking member, 
Ms. Bass.
    Okay. I will go to the chairman of the full committee.
    Mr. Royce. I thank you. Congresswoman, thanks for allowing 
me to make an opening statement as well. And let me thank the 
both of you for your engagement on the continent, an engagement 
that has been consistent. And now there are some new 
opportunities.
    I recall just about 20 years ago that I was in Harare and 
Bulawayo, and the emotional feeling of listening to Morgan 
Tsvangirai's supporters, and later him, speak about that issue 
of human rights, and going back later and not being able to get 
into the country, but having the opportunity to meet with some 
of those who had been tortured or had gone through a lot. And 
not just members of that Movement for Democratic Change. Also 
some of the ZANU-PF members who I talked to who tried to speak 
out. Tried to speak out.
    And this is the problem of a society in which you have a 
totalitarian aspect that takes hold. And slowly, economic 
freedom erodes, opportunity erodes, and you have a situation 
where people have absolutely no ability any longer to choose 
their leaders or to choose the future for their country.
    Now that is in play again. Now there is that opportunity. 
And I know the international community and NGOs and those 
concerned with leading on human rights have great hope at this 
point in time.
    We watched here on this committee as the regime stripped 
away the opportunity that existed for people. But Zimbabwe, as 
you all know, was once the breadbasket for the region. And we 
had a Zimbabwe Democracy and Economic Recovery Act that we 
passed here in 2001 in which we tried to shape events there.
    But today we have got to be clearheaded, I think, as we 
look at the prospects for democracy. Some members of the 
current government did have a role in the oppressive and 
violent policies that characterized the Mugabe regime. Some are 
responsible for some of the worst abuses.
    But on the other hand, we do have that opportunity. And we 
have a lot of people in Zimbabwe today who have second thoughts 
and are looking back at what happened and how it happened. And 
I think a lot of those individuals are really determined to 
make certain that Zimbabwe now has that chance to chart its 
future.
    We remember Morgan Tsvangirai, recently deceased of course, 
but we remember him for his unwavering struggle. And I think 
the July elections that are quickly approaching, this will be 
an important test. I think the people of Zimbabwe, at this 
point, it is their time. It is their opportunity.
    But elections have got to be credible. They have got to be 
peaceful. They must be transparent. I think the government must 
take steps to combat corruption, to protect freedom of 
expression, to end state-backed violence and intimidation, and 
address other issues in terms of the rights of the people.
    The U.S. should see meaningful progress toward these 
reforms before we revise our current policy, because we need a 
little leverage in this. And I think the U.S. would be a 
partner in all of these reform efforts. I think we will have 
bipartisan support for that partnership. And I think it is 
through these reforms that we will see again prosperity and 
opportunity.
    I am not sure I should say ``see again.'' I think maybe see 
for the first time. Because Zimbabwe had a long, struggled, 
tortured history. But finally, that chapter is over. And like 
the previous chapters in that history, it has been tough on the 
people of Zimbabwe.
    So let's all of us do what we can do, but I appreciate 
these witnesses traveling so far to testify.
    I have got a meeting with an Ambassador here adjacent. But 
I want to again thank you, Chris, Chairman, and thank you very 
much, Congresswoman, for your engagement here.
    Mr. Smith. Thank you very much, Chairman Royce. Thank you 
for taking the time from what I know is an extremely busy 
schedule to be here. Your commitment and concern about Africa 
is legendary. So thank you for being here.
    I would like to now yield to Karen Bass again, the ranking 
member, for any opening comments she might have.
    Ms. Bass. Thank you, Mr. Chair, and ditto to the words that 
you just said about our chairman and his long history of 
support for Africa.
    In November 2017, we all know that Robert Mugabe's 30-year 
Presidency ended. The circumstances under which he left office 
included a military operation, paramilitary proceedings, 
preliminary proceedings to impeach him, and most importantly, 
ordinary citizens dancing, cheering, and waving flags in the 
streets.
    Why would Zimbabweans march alongside the military 
celebrating and demanding the resignation of Mugabe? Well, 
there are a host of reasons. The answer is pretty simple. As 
our witness Dr. Dendere will point out, for the first time 
Zimbabweans felt a sense of hope. Hope for their political and 
economic future.
    There are many ways to read this current moment, and today 
we will attempt to consider how the U.S. can best reengage the 
Government of Zimbabwe. It will be tempting to tie everything 
to the next elections, to focus on allowing international 
observers, ensuring free, fair, and transparent elections to 
make sure that elections take place this year. And although we 
know this is important, normalizing relations with Zimbabwe 
requires more than a good election.
    First, we have to consider that while this is not exactly a 
traditional military coup, it also wasn't a regular democratic 
transition of power. The military has a long history of 
partisanship with the ruling party interfering in the nation's 
political electoral affairs in ways that adversely affected the 
ability of citizens to vote freely. The partisanship of the 
security forces' leadership has translated into abuses by these 
forces against civil society, activists, journalists, and 
members and supporters of the opposition political party the 
Movement for Democratic Change.
    The military played a key role in this transition and while 
some citizens expressed support for the transition of power, 
recent polling by the Afrobarometer shows that 69 percent of 
Zimbabweans are against military rule and 75 percent prefer 
democracy over any other form of government. This should give 
the Mnangagwa government a sense of what their citizens want.
    Going forward, it will be important for the military to 
show that they will comply with the Constitution by staying out 
of the electoral process. The military should have no role in 
the upcoming political campaigns.
    And I don't say this lightly. Everyone in this room is 
well-aware that here in the U.S. we are going through our own 
challenges with protecting U.S. electoral systems, including 
dealing with external interference to voter suppression. It is 
vitally important that countries not leave their political 
systems vulnerable.
    A key part of ensuring the credibility of Zimbabwe's 
elections is to ensure that the electoral commission is 
independent, impartial, and nonpartisan. It is also essential 
that every citizen has the right to voice their views and 
opinions individually and collectively; that they have the 
ability to vote; that elections are free from violence; that 
opposition parties are able to operate and campaign freely 
without harassment; that the election is transparent; that the 
institutions can operate independently; and that the military 
does not engage in politics.
    The current administration has an opportunity to break with 
the past to set the country on a new course by strengthening 
democratic institutions and rule of law, improving human rights 
and civil liberties, including allowing freedom of assembly and 
expression, and enacting economic and political reforms that 
will better the lives of Zimbabwean citizens. But they also 
have an opportunity to address many of the challenges that were 
not resolved during Mugabe's Presidency so that the country can 
truly enter a post-Mugabe era.
    Mr. Smith. Thank you very much, Ms. Bass.
    I would now like to welcome our very, very distinguished 
panel, beginning with Ambassador Charles Ray who served as U.S. 
Ambassador to Zimbabwe as well as Cambodia.
    Ambassador Ray retired in 2012--although he can't call what 
he is doing now retirement. He is now more active than ever--
after a 30-year career in the U.S. Foreign Service that 
included postings in China, Thailand, Sierra Leone, and 
Vietnam. He also served as the first U.S. Consul General in Ho 
Chi Minh City, Vietnam.
    Prior to joining the Foreign Service, Ambassador Ray spent 
20 years in the U.S. Army, retiring with the rank of major 
during his Army career. He did two tours in Vietnam, served in 
military intelligence, special operations, and public affairs, 
with assignments in Germany, Korea, Vietnam, Panama, and the 
United States.
    Since his retirement, he has been a writer, lecturer, and 
consultant, and has done research on leadership and ethics. He 
is the author of more than 60 books of fiction and nonfiction.
    Ambassador Ray is a member of the American Foreign Service 
Association. He is on the board of directors of the American 
Academy of Diplomacy and the Cold War Museum at Vint Hill, 
Virginia, and is director of communications for the Association 
of Black American Ambassadors.
    We welcome your testimony, Mr. Ambassador, and thank you 
for your service to our country, both in uniform and in the 
Foreign Service.
    We will then hear from Elizabeth Lewis, who is a regional 
deputy director for Africa at the International Republican 
Institute, or IRI, where she oversees field offices in 12 
nations, including Zimbabwe. In her role at IRI she focuses on 
the implementation of local governance, elections, conflict 
mitigation, and civil society programs.
    Since 2009 Ms. Lewis has managed IRI programs in sub-
Saharan Africa, specializing in the Horn and Southern African 
regions. She observed Tunisia's December 2014 Presidential 
runoff election, Nigeria's March 2015 general election, and 
Ghana's December 2016 national elections.
    Ms. Lewis has a BA in political science and economics from 
St. Mary's College in Maryland and an MS in political economy 
of late development from the London School of Economics and 
Political Science.
    Thank you for being here as well.
    We will then hear from Ben Freeth, MBE. He is the executive 
director of the Mike Campbell Foundation, an organization 
fighting for human rights and property rights in Zimbabwe.
    Together, with his late father-in-law, Mike Campbell, the 
owner of Mount Carmel Farm in central Zimbabwe, Mr. Freeth took 
President Robert Mugabe's government to court in the Southern 
African Development Community's regional court, the SADC 
Tribunal, contesting the regime's ongoing attempts to 
unlawfully seize Mr. Campbell's farm and for engaging in racial 
discrimination and violence against White commercial farmers 
and their workers.
    Mr. Campbell, his wife, and Mr. Freeth were abducted and 
tortured in 2008 and later suffered the destruction of their 
home by fire. Since 2011, Mr. Freeth has been involved in 
initiatives to restore the SADC Tribunal after it was shut down 
by the SADC head of state, thus denying individual citizens 
access to the human rights court.
    Mr. Freeth also works closely with Foundations for Farming, 
an organization that provides training in conservation and 
agriculture and teaches impoverished farm workers and others 
how to feed their families.
    We welcome back Mr. Freeth, who testified before this 
subcommittee in 2015.
    Then we will hear from Dr. Chipo Dendere, who is a 
Zimbabwean political scientist currently serving as a 
Consortium for Faculty Diversity fellow and visiting assistant 
professor of political science at Amherst College.
    Dr. Dendere's research expertise is in democracy, 
elections, and migration, with a regional interest in African 
politics. She writes about the impact of voter exit, migration, 
and remittances on the survival of authoritarian regimes. Her 
new research is on the role of technology and social media in 
new democracies.
    We welcome her testimony before the subcommittee and thank 
her for being here as well.
    Mr. Ambassador, the floor is yours.

    STATEMENT OF THE HONORABLE CHARLES A. RAY (FORMER U.S. 
                    AMBASSADOR TO ZIMBABWE)

    Ambassador Ray. Thank you, Mr. Chairman and Ms. Bass. I am 
very honored to be able to appear here today to discuss the 
path forward in U.S.-Zimbabwe relations.
    I served as U.S. Ambassador to Zimbabwe from 2009 to 2012, 
during the period of the ZANU-PF/MDC coalition government, a 
time of relative peace and a certain amount of economic 
stability, but, unfortunately, also a time of lost 
opportunities to put Zimbabwe on the path of a truly 
representative government and a prosperous economy.
    Most Americans probably know very little about Zimbabwe, 
but for a brief time this past November it was again very 
prominent in the American media. After several weeks of 
increasing political turmoil, primarily within Mugabe's ruling 
party, the First Vice President, Emmerson Mnangagwa, was 
accused of disloyalty and sacked. He then fled to South Africa, 
claiming that his life was in danger.
    Around the same time, Mugabe's wife Grace began to appear 
more and more in public, stating that she should be the one to 
succeed the aging leader, statements that Mugabe, to his 
discredit, did nothing to deny.
    In an unprecedented for Zimbabwe move, General Constantine 
Chiwenga, chief of the defence staff, made a public statement 
that the military would not stand idly by and allow liberation 
figures to be removed from the government or from the party.
    He was accused of treason. But shortly thereafter, the 
military made its move. It took control of key installations in 
Harare, placed Mugabe and his family under effective house 
arrest--although it was very quick to publicly state this is 
not a coup. But as one opposition figure said, if it looks like 
a duck and it walks like a duck, it is a duck.
    Make no mistake about it, even though it was a palace coup 
with the military moving against members of its own party or 
the party that it supports, it was, in fact, a coup d'etat, a 
relatively nonviolent one and done in a most unusual way.
    Mugabe was allowed to meet with the press, to engage in a 
phone conversation with the former President of South Africa, 
and his meeting with the leader of the coup, with General 
Chiwenga, at least on the surface, appeared to be very cordial, 
and he was even allowed to call a cabinet meeting. But it was 
still a change of government initiated by force of arms, rather 
than through the ballot box.
    However, how the military's actions in this case will be 
dealt with I think is something for Zimbabweans to handle. For 
the rest of the world, and for the U.S. in particular, I think 
the key questions now are: Where is Zimbabwe going from here, 
and what role should we play in that journey?
    We should start, I think, with a bit of background on the 
new interim President, Emmerson Mnangagwa. I think the question 
on many minds is: Will he be any different from Mugabe?
    He is, after all, someone who worked closely with Mugabe 
for more than 37 years after the country's independence and 
served as an intelligence officer during the war for 
independence, and who, because of his actions in support of the 
crackdown on the Ndebele political opposition in the 1980s and 
MDC supporters in the 1990s, has earned the nickname ``the 
crocodile.''
    Prior to being appointed to the First Vice President 
position, Mnangagwa served as Defence Minister and also as 
Justice Minister. Though he lacks Mugabe's charisma, it appears 
that he enjoys the firm support of many of the senior military 
officials.
    I think, moving forward, his first priority will be to 
reassert control over ZANU-PF, a party that is fractured along 
generational lines with many of those in their forties and 
fifties, known as the G-40, supporting Grace Mugabe against the 
older liberation era party members.
    A united ZANU-PF is essential if the party is to retain 
power. This won't be an easy task for Mnangagwa as the rift 
between the two demographics was worsened by some of the 
actions and rhetoric during September-November of last year.
    The issue is further complicated by the presence of former 
ZANU-PF number two Joice Mujuru. She was First Vice President 
until she was canned a few years ago. She is now the head of 
the People First or ZIM-PF Party.
    Until Grace Mugabe engineered her ouster, she was in 
competition with Mnangagwa to be Mugabe's successor. A veteran 
of the liberation struggle, as a fighter with a fierce 
reputation, she also enjoys some military support, although 
probably not as much as Mnangagwa.
    The second priority, I believe, will be to ensure ZANU-PF's 
continued control of power in the country. If he can somehow 
pull all of the factions together and overcome the possible 
threat from Mujuru, he will have to decide whether or not to 
proceed with elections in July 2018. I realize that he has 
publicly stated that he will, but we will have to see what 
really happens.
    While violence and chicanery are still possibilities that 
cannot be cavalierly dismissed, a united ZANU-PF is likely to 
be able to do well against the current opposition party lineup. 
The Movement for Democratic Change, or MDC, is still split 
between the faction led by the late Morgan Tsvangirai, now with 
an interim President, Nelson Chamisa, and the one led by 
Welshman Ncube.
    As the parties that pose the greatest challenge to ZANU-PF, 
especially in the urban areas, if they were united, they would 
surely do well, but it is unlikely that they will unite. The 
remainder of the opposition parties, with the exception of 
Joice Mujuru's party, will only take votes away from the two 
MDCs, which is to ZANU-PF's advantage, unfortunately.
    In the rural areas, ZANU-PF has, in the past at least, had 
an advantage and Mnangagwa is sure to capitalize on this. So 
while it is too early to predict that the 2018 elections will 
be free, fair, and nonviolent, let's assume for a moment that 
they will be. Where do we go from that point?
    During my time as Ambassador to Zimbabwe, one of the most 
frequent topics of conversation was U.S. sanctions. Put in 
place in response to the violent land seizures and electoral 
violence of the late 1990s, the Zimbabwe Democracy and Economic 
Recovery Act, or ZDERA, was passed in December 2001, and a 
Presidential executive order targeting individuals and entities 
involved in the violence and other anti-democratic acts was 
issued in March 2003.
    Both of these actions were intended to encourage a return 
to democracy and representative government, something that had 
not happened by the time of my arrival in 2009. After the MDC 
won the 2008 elections, although without the necessary 51 
percent majority, there was more violence. But under South 
African pressure, a coalition government was formed.
    That government, with the MDC in a decidedly subordinate 
position to ZANU-PF, lasted until the 2014 elections in which 
ZANU-PF got the required majority and subsequently formed a 
government without the MDC.
    The sanctions, in my view, were clearly not having the 
desired effect, and Mugabe's party's hardliners were using 
their existence as an excuse for every ill that the country 
suffered. My response to the many questions of, ``When will the 
sanctions be lifted?'' was, ``When there is a return to 
nonviolent elections and democracy.''
    In fact, during one of my final media interviews before I 
departed in 2012, I said that sanctions were a response to a 
violent electoral process. A credible electoral process free of 
violence would make our current policy somewhat irrelevant.
    If this year's elections are held, if they are determined 
to be credible, and if there is no violence, the ball will be 
in our court. If we truly want to see Zimbabwe develop to its 
potential, we must be prepared to work with the winner of a 
credible, nonviolent election regardless of the political 
party.
    Even if the election is credible and nonviolent, any new 
government is almost certain to contain officials who bring a 
lot of historical baggage with them to their positions. I 
firmly believe, however, that we should in such a situation put 
the past behind us and focus on the policy statement in the 
introduction of ZDERA: ``It is the policy of the United States 
to support the people of Zimbabwe in their struggle to effect 
peaceful, democratic change, achieve broad-based and equitable 
economic growth, and restore the rule of law.''
    I leave development of the precise modalities of our 
actions to the policymakers and the professionals in the 
foreign and civil services of our foreign affairs agencies, 
primarily State and AID, but I would offer a few humble 
suggestions on a way forward.
    First, I think we should instruct our Embassy in Harare to 
make contact with Mnangagwa and his current government to 
reiterate firmly our policy regarding sanctions and to inform 
him that if upcoming elections are credible and nonviolent we 
are prepared to recognize and work with the new government.
    While we would continue to monitor the human rights 
situation, our initial focus should be on actions to 
reinvigorate the country's economy and empower the private 
sector to revitalize the agricultural sector, and rebuild 
stagnant industries with a view to creating meaningful 
employment and broad economic security.
    We should encourage the new government to develop an 
investor-friendly climate, take steps to curb corruption, while 
at the same time encourage American businesses to explore the 
opportunities to increase two-way trade and investment.
    You might note, I said nothing about lifting sanctions. I 
think that that should be the stick. The carrot, I think, would 
be our offer to deal with the government. The stick is, if they 
don't deal, sanctions stay in place.
    During my time as Ambassador, we experimented with a local 
economic development program modeled on an Asian village 
financing scheme that I encountered when I lived in Korea back 
in the 1970s. Women in a few poor rural villages were taught to 
organize local savings clubs in which deposits were loaned out 
to members at low interest for income-producing ventures. These 
programs, though they were known to the government, were 
outside government control, and within months of establishment, 
totally self-reliant.
    Consideration should be given to implementing such a 
program in rural and suburban communities throughout the 
country. People who are economically self-sufficient are less 
vulnerable to political exploitation.
    The elephant in the room which can't be ignored is the 
Zimbabwean military. Existing laws and regulation will limit 
what we can do with the military. But for the long-term, 
peaceful development of Zimbabwe, at some point we will have to 
figure out a way to work with this institution.
    Initially, I believe the primary focus should be on 
inculcating in the military establishment an ethos of service 
to the nation as a whole rather than identification with a 
specific political party.
    In my limited contact with senior military officials when I 
was Ambassador, I was convinced that there exists within the 
military establishment a small cadre of people who would like 
to be professional and who would like to depoliticize the 
institution. The challenge will be to identify those 
individuals and develop effective ways of working with them.
    One possibility, I think, might be to establish a working 
relationship with the SADC peacekeeping academy, which happens 
to be located in Harare, and allowing properly vetted 
Zimbabwean military officials to participate in courses of 
instruction on military professionalism.
    Again, I leave it to State and Defense, working with 
Congress, to determine if such a program could be implemented 
and just how it should.
    While I have in making these recommendations assumed that 
elections will be held in July 2018 and assumed that they will 
be credible and nonviolent, I must make clear at this point 
that I am not making a prediction. I do believe that if 
everyone in Zimbabwe approaches the coming months with an 
earnest desire to see the country pull itself out of the 
doldrums and take its rightful place in the region and in the 
world, it can happen.
    If it does happen, if everyone then puts the past behind 
them and focuses on the future, a new and more vibrant Zimbabwe 
can arise phoenix-like from the ashes.
    Thank you.
    [The prepared statement of Ambassador Ray follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                    ----------                              

    Mr. Smith. Thank you so very much, Ambassador Ray.
    Ms. Lewis.

  STATEMENT OF MS. ELIZABETH LEWIS, REGIONAL DEPUTY DIRECTOR, 
      AFRICA DIVISION, INTERNATIONAL REPUBLICAN INSTITUTE

    Ms. Lewis. Chairman Smith and Ranking Member Bass, it is an 
honor to testify before you today on the upcoming elections in 
Zimbabwe and the prospects for genuine democratic reform 
following the end of President Mugabe's 37-year rule.
    I work for the International Republican Institute, which is 
a nonpartisan, nonprofit organization that is committed to 
advancing freedom and democracy worldwide. Since the early 
1990s, IRI has supported pro-democracy activists in their 
struggle to bring real and lasting democratic reform to 
Zimbabwe.
    Over the course of the last few months, Zimbabwe has turned 
a page in its history. On the evening of November 14, several 
leaders within the Zimbabwe Defence Forces led a coup against 
the government of President Robert Mugabe, which ended in his 
resignation a few days later. Then, just 2 weeks ago today, 
opposition leader and former Prime Minister Morgan Tsvangirai 
succumbed to his battle with cancer.
    The departure of both Mugabe and Tsvangirai has upset the 
political order, and while some see the present situation as an 
opportunity for positive change, it is also a very fragile 
period for the country.
    ZANU-PF remains in full control of Zimbabwe's governing 
institutions and chose former Vice President Emmerson Mnangagwa 
to serve as the country's third President. Mnangagwa's 
reputation precedes him, leaving many, including myself, 
skeptical of the prospects for genuine democratic reform under 
his leadership. One of his first acts as President, for 
instance, was to appoint a 22-member cabinet that included 
ZANU-PF hardliners and several military leaders who led the 
coup to put him in power.
    Meanwhile, Zimbabwe's fractured political opposition is 
represented by several loose and evolving coalitions of 
political parties from both the historical opposition, 
including Tsvangirai's MDC-T, and defectors from ZANU-PF, 
including Joice Mujuru.
    To date, the three main opposition coalitions, which 
include the MDC Alliance, the People's Rainbow Coalition, and 
CODE, have been unable to unite under a single cohesive 
electoral and governing coalition.
    According to Zimbabwe's 2013 Constitution, barring a 
dissolution of Parliament, the 2018 elections must occur 
between July 23 and August 22. In recent statements, though, 
President Mnangagwa indicated the elections would occur before 
July and that they would be free, fair, credible, and free of 
violence.
    However, in observing the biometric voter registration 
process that began on September 14, the Zimbabwe Election 
Support Network, or ZESN, indicated that turnout for the 
registration process was low, particularly among young people. 
The group cited limited voter education, intimidation of 
registrants, and misrepresentation of ID requirements as 
contributing factors to low turnout.
    The challenge of high rates of voter illiteracy must be 
addressed through extensive voter education efforts in the 
leadup to election day. However, the short and still 
unannounced electoral timeline, combined with the challenges of 
misinformation, fears of violence, and the historical legacy of 
election fraud, makes all of this a significant undertaking.
    Additionally, the environment in which campaigns and 
elections occur must be conducive to genuine political 
competition. For this to happen, several laws in Zimbabwe used 
to limit freedom of speech, freedom of assembly, and freedom of 
the press, and also restrict access to information, must be 
repealed or reformed to align with the 2013 Constitution.
    Finally, the importance of a viable opposition capable of 
competing in the electoral process cannot be understated. A 
critical benchmark for the opposition in the coming elections 
is the prevention of a supermajority in the National Assembly, 
to prevent, among other things, amendments to the Constitution 
that would restrict political space and fundamental freedoms or 
grant additional powers to the Presidency.
    It is vital that the U.S. stand by the Zimbabwean people in 
the movement for democratic reform in this period of 
transition, and with that goal in mind, I would like to offer 
the following recommendations.
    First, the United States must be ardent in its support for 
free and fair elections. The citizen movements of last year are 
evidence of the strong desire for genuine change. The current 
government lacks electoral legitimacy and has a stated interest 
in returning to a full constitutional order.
    Considering this alignment of interests, the U.S. must 
redouble its efforts to work with our Zimbabwean and regional 
partners, namely, SADC and the African Union, to stand for 
nothing less than a transition to democratic rule.
    Relatedly, and over the longer term, the U.S. and our 
democratic allies must provide support to foster a competitive 
multiparty political system and the establishment of democratic 
institutions in Zimbabwe. This would include judicial, criminal 
justice, and security reform, opening the information space, 
the full implementation of the 2013 Constitution, responsive 
and participatory governance and service delivery, and a 
legitimate truth and reconciliation process.
    Third, the United States should be prepared for numerous 
scenarios in a post-Mugabe era. ZANU-PF and the military 
complex that plays an increasingly visible role in the 
political party have everything to lose from a shift in the 
power dynamics of the country. Political repression and 
disregard for fundamental human and political rights is an 
ongoing problem in Zimbabwe and we need to be vigilant under 
the new dispensation in the leadup to and following elections.
    And finally, the United States must hold the line with 
targeted sanctions and within international financial 
institutions. This is our strongest point of leverage in the 
push for democratic reform and respect for fundamental human 
rights and freedoms. Reforms must be required as a precondition 
for lending and debt or sanctions relief.
    I thank you for your time and I look forward to your 
questions.
    [The prepared statement of Ms. Lewis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
                    ----------                              

    Mr. Smith. Ms. Lewis, thank you very much for your 
recommendations and your testimony and your work. Thank you.
    Mr. Freeth.

STATEMENT OF MR. BEN FREETH, EXECUTIVE DIRECTOR, MIKE CAMPBELL 
                           FOUNDATION

    Mr. Freeth. Thank you very much. It is a great honor to be 
here once again in Washington, DC, and to be able to testify 
straight out of Zimbabwe as to where we are at this point. And 
it is really heartening to hear so much talk about the rule of 
law and the importance of the rule of law in our country.
    And I think when we look back and we see what has taken 
place, with 25 percent of the population having left our 
country, with the education systems, which were the best in 
Africa, being trashed, with the social systems ending up in a 
total state of disrepair, with the economy in total tatters, 
with people queuing outside the banks just to try and withdraw 
their money, we have to look at the cause of these things. And 
the cause is the destruction of the rule of law and the 
destruction of property rights.
    So we have just had a coup. We are 100 days in, or 
thereabouts, not quite. And where are we now? Are things 
getting better? Are reforms taking place? And I think if we 
listen to the rhetoric, it sounds all very good. There is a 
massive charm offensive taking place at the moment and many 
people are taken in by that charm offensive of the President 
and others in trying to make it look as though things have 
changed because the guy at the top has changed.
    But when you look at it on the ground, unfortunately, not a 
lot has yet changed. There is talk about 99-year leases on 
land, but when you look at the small print, those 99-year 
leases are actually only 90-day leases, and there is a clause 
that allows government to cancel those leases with no notice in 
90-days' time.
    We are seeing talk about the rule of law coming back, 
property rights coming back, but at this stage, we have seen no 
laws actually changed. Even the Indigenization Act has not been 
repealed.
    We see the militarization of many parts of government. We 
have obviously got the former Minister of State Security as the 
President. We have got the former Minister of Defence, and 
after that, of the Armed Forces, as the Vice President. We have 
got the guy who was in charge of Fifth Brigade that massacred 
20,000 people in Matabeleland as the Minister of Lands. And 
then, within the civil service, there are many military figures 
actually coming in, and within the Zimbabwe Electoral 
Commission as well.
    So we have got a situation where there is a huge amount of 
charm, but we have still got the same situation on the ground. 
So I think we have to look at that, and we have to look at what 
needs to be done in order to restore rule of law and to restore 
property rights.
    And I think ZDERA was a very far-thinking program or act 
that was put in place in December 2001, and I would like to 
recommend very strongly that ZDERA does remain in place. One of 
the aspects of ZDERA was respect for ownership and title to 
property, one of the main issues relating to the destruction of 
the economy.
    And I believe that the judgment that came in from the SADC 
Tribunal, an African solution to an African problem, this 
tribunal that gave judgment in favor of property rights back in 
2008, that should be incorporated within ZDERA so that it 
becomes the international legal obligations, as per the SADC 
treaty, should be brought in as part of ZDERA.
    I think also we have talked a lot about free and fair 
elections. It is absolutely imperative that there are people on 
the ground observing now as to what is taking place in terms of 
the militarization of ZEC, the Zimbabwe Electoral Commission, 
and of the intimidation that is going on in the rural areas 
ahead of the election.
    And I think the third thing that is so important is that 
the SADC Tribunal, this court that was set up for the 280 
million people in Southern Africa, is brought back into being. 
And at this stage we have done an awful lot. We are actually 
expecting a judgment tomorrow in South Africa regarding our 
case against President Zuma for his part in destroying that 
SADC Tribunal, and we expect a good judgment.
    But we need to have other governments being brought to task 
within the SADC region, or other heads of state, for their part 
in signing a new protocol that takes away the rights of the 
individual to be able to go to that court as a court of last 
resort.
    We hope for a better country, and I think a major step has 
been taken with President Mugabe not being in place any longer 
at the head. But we need the next step to be taken where the 
rule of law is brought back, where democracy is able to take 
place, and where human rights are respected along with property 
rights.
    I thank you.
    [The prepared statement of Mr. Freeth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               ----------                              

    Mr. Smith. Thank you so very much, Mr. Freeth.
    We now go to our fourth and final panelist, Dr. Dendere.
    Thank you again for being here.

     STATEMENT OF CHIPO DENDERE, PH.D., VISITING ASSISTANT 
                   PROFESSOR, AMHERST COLLEGE

    Ms. Dendere. Thank you, Chairman Smith and Ranking Member 
Karen Bass, for the invitation to testify today.
    The United States and Zimbabwe have had a long and 
supportive relationship. The United States remains Zimbabwe's 
biggest donor and has already given $1 billion in aid since 
2001.
    The ouster of Mr. Mugabe in November 2017 after a military-
led guardian coup that ended in his resignation is an outcome 
that many of us would not have predicted. I believe I also 
speak for my generation, those of us born after independence, 
when I say the idea of a post-Mugabe Zimbabwe is quite surreal.
    Mr. Mugabe's 37-year tenure was complex. While he made 
significant improvements in welfare provisions, his 
authoritarian rule resulted in much suffering, notably, the 
1983 Matabeleland genocide and violence again political 
opponents.
    In response to the declining economy, at least 2 million 
Zimbabweans emigrated. At least 80,000 of those found refuge in 
the United States. Zimbabweans in the United States are highly 
skilled and many of them have been educated at top 
universities, including MIT, Harvard, and Yale.
    Zimbabwean Americans have also made significant 
contributions in the arts. For example, the brilliant ``Black 
Panther'' actress Danai Gurira.
    While Zimbabweans celebrated the change in the government, 
this quickly turned into allowing the continued involvement of 
the military in otherwise civilian affairs. When I flew into 
the Harare International Airport in early December, soldiers 
required everyone arriving to show our IDs. This was new for 
Zimbabwe.
    It is unlikely that an unreformed ZANU-PF government will 
usher in a democratic system. It is also unlikely, following 
the death of Morgan Tsvangirai, that a divided opposition 
climate will spread democratic growth.
    It is my expert opinion that additional government-to-
government aid and investment will not solve Zimbabwe's 
problems in the absence of significant reforms that address 
elections, corruption, and economic development.
    While President Mnangagwa has stated his commitment to free 
and fair elections, state media is heavily controlled by the 
ruling party. Democracy cannot thrive when the media is 
stifled. State institutions such as the police and the military 
remain partisan. The peacefulness of the 2018 election is thus 
at risk.
    Zimbabwe's high youth unemployment has also created a 
readily available marketplace of youth who can be paid to harm 
others. Interparty violence is also a growing concern.
    However, despite the restricted access to state media, 
initiatives such as the Open Parly platform and BusStopTV, a 
political satire group, have effectively utilized social media 
and have a combined reach of over \1/2\ million citizens.
    Voice of America remains an important media platform, 
reaching nearly 700,000 citizens weekly. I recommend that the 
United States continue providing funding for VOA and 
independent media.
    Zimbabwe loses between $1 billion to $2 billion from 
corruption each year. President Mnangagwa has promised zero 
tolerance of corruption. However, to date, corruption 
investigations have targeted only those affiliated with the 
losing pro-Mugabe faction of ZANU-PF. At least five members of 
President Mnangagwa's cabinet have been implicated in 
corruption worth billions of dollars.
    Although President Mnangagwa recently announced that some 
officials have heeded his call to return stolen funds and to 
declare assets, no specifics have been shared about those 
returns.
    Corruption is an epidemic. For this reason, it is important 
for the United States to engage the new government very 
strongly and firmly on corruption.
    ZANU-PF often blamed Zimbabwe's stunted economic growth on 
economic sanctions, in particular the United States' Zimbabwe 
Democracy and Economic Recovery Act, ZDERA. Lack of clarity on 
both the Zimbabwe and U.S. investor side on the requirements of 
ZDERA have had some negative implications on investment.
    For example, Zimbabwean businesses have been denied credit 
by American banks who are not clear on the policy requirements 
under ZDERA. Clarity on the types of business-to-business 
engagements acceptable within the confines of ZDERA is 
required.
    I also recommend that the United States reconsider 
sanctions on state-owned businesses. Justifiably, the United 
States has long been concerned with the links between ZANU-PF 
and state enterprises. Indeed, much of the corruption has 
occurred in the state-owned businesses.
    However, it is my expert opinion that in the post-Mugabe 
era, legislative independence has been bolstered and the 
Parliament is now equipped to hold government officials to 
account.
    Regarding individual sanctions, the onus is on those listed 
to prove their commitment to democracy. Many on the list have 
allegedly committed horrible crimes against humanity. It would 
be a greater injustice to lift these sanctions before a 
thorough investigation has been conducted. Zimbabwe cannot have 
economic growth that is divorced from addressing human rights 
abuses.
    Robert Mugabe's exit from politics is not enough to absolve 
individual crimes. President Mnangagwa's motto is that Zimbabwe 
is open for business. Zimbabwe has long been open for business, 
but poor governance bottlenecked efforts by local and foreign 
investors.
    President Mnangagwa has said all the right things necessary 
for a conducive business environment in Zimbabwe. The real test 
will be whether he follows through on his promises. His 
government has thus far made adjustments to unpopular policies, 
including the Indigenization and Empowerment Act, which should 
help increase investor confidence.
    While the United States faces tough competition from China 
and Russia in sourcing Zimbabwe's natural resources, 
Zimbabweans that I have spoken to have indicated a preference 
for American business. A democratic Zimbabwe and strengthened 
U.S.-Zimbabwe economic partnership remains mutually beneficial 
for the two countries.
    Thank you.
    [The prepared statement of Ms. Dendere follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                     ----------                              

    Mr. Smith. Thank you. I thought you might have had one 
final statement to make. I appreciate it.
    Let me begin the questioning. First, maybe, Ambassador Ray, 
if I go to you, but others who would like to answer these 
questions, please do.
    We know that Mnangagwa was obviously head of state security 
and the CIO during some very, very brutal periods, hence, the 
name ``crocodile,'' perhaps, but also people would suggest that 
maybe he is a changed man today.
    It is important to know, past sometimes is prologue. Far 
too often it is prologue. I wonder, however, how many political 
prisoners years-to-date have there been in Zimbabwe?
    And if you could expound upon the use of torture. I have 
authored four laws on torture victims. It is called the Torture 
Victims Relief Act. And here in this room I have heard 
testimony, as has my staff, as well as in countries all over 
the world, at torture centers, as well as in prisons, the 
Laogai, in Jakarta, the Soviet Union. The use of torture is 
often endemic.
    And Mr. Freeth--and, without objection, your full 
statement, like all of your full statements, will be made a 
part of the record--you have a picture of both you and Mike 
Campbell, your father-in-law, who was killed by way of a 
beating, and you with blood all over your face. And you point 
out, obviously, that will be another question, about the SADC 
courts--and, Ambassador, you might want to speak to that as 
well--which were done away with in 2012.
    Is that something that would come back? Is that something 
that the Trump administration and the European Community and 
especially the African countries need to say that needs to be 
returned.
    Legacy human rights issues are as important as current day 
human rights issues. There is no statute of limitations on 
torture and other kinds of horrific misdeeds or murder.
    So if you could speak to that, if you would, as an opening.
    And then I have some additional questions about the Dr. 
Frist-Feingold legislation, which we have already heard a lot 
of talk about, ZDERA, that had to do, obviously, with loans and 
no more debt relief. And you may recall debt relief during 
those years was one of the most popular issues around. Bono 
certainly helped to make it very popular. But debt relief is 
off the table when you are dealing within an abuser, abusing 
country.
    I think, Mr. Freeth, you at least alluded to or maybe you 
even said how important it was that SADC restoration, 
especially judgments, ought to be part of lifting of sanctions. 
And maybe you want to speak to that as well.
    Ambassador Ray. All right. Thank you, sir.
    As to the number of prisoners, I am afraid I don't know--
either currently or historically, I don't know currently and 
historically, if I was told. I have reached an age where my 
brain cells don't retain such things.
    On the issue of the SADC Tribunal, I would strongly suggest 
that we reach out to whoever we can to encourage the return of 
that. One of the issues and lectures I have given on Zimbabwe 
over the last 6 years, one of the points I make repeatedly is 
that a lot of the issues in Zimbabwe arise from historical 
incidents that have never been resolved, going back, of course, 
to Gukurahundi in the 1980s when some 20,000 Ndebele were 
killed over a 2-year period. And I think it was by the fifth 
brigade, which is trained by the North Koreans. But it even 
goes beyond that. And a lot of these issues have just been 
brushed under the rug. People don't like to talk about it.
    One of the things I learned from my time in Cambodia in 
dealing with the Khmer Rouge Tribunal is that, if nothing else, 
creating a venue where these issues can be brought to light and 
discussed. Whether they result in judicial punishment or not is 
actually less important than having them officially and 
formally acknowledged. So I would definitely argue that the 
SADC Tribunal, or some similar institution, should be put in 
place, and it should be a permanent institution to deal with 
these issues, not just in Zimbabwe, but across the region as a 
whole. South Africa has issues that are still unresolved that 
need to be taken care of.
    In terms of the issue of sanctions. You have the ZDERA on 
the one hand, which addresses the country's debt and its 
international loans. And if I am not mistaken, actually 
Zimbabwe is not even eligible to apply for loans currently 
because of its arrears to the international financial 
institutions. And so leaving ZDERA in place, it is a handy tool 
to have for later, but it has no impact.
    Now, the other issue, the people often get confused between 
ZDERA and the administrative sanctions, which came in 2 years 
later. These, I think, are the real immediate stick that we can 
use. But people have to understand that these sanctions are not 
against the country in its entirety, but against specific 
individuals and specific entities. I think a lot of people here 
in the U.S. misunderstand that.
    And it does not limit or prohibit commercial transactions. 
I am still a firm believer in revitalizing and strengthening 
the private sector as a counterweight against an out-of-control 
government. One of the ways that ZANU-PF and the military and 
security services manage to maintain such control is people 
have no place else to turn. If you had a stronger private 
sector, as we have seen in places like Korea, I was in Korea in 
the 1970s when it was still a dictatorship. Watching the 
development of a vibrant middle class, and of an economy that 
was growing and creating jobs, has created a completely 
different career. It went from a military dictatorship still 
evolving, but it is now, I think, the 13th largest economy in 
the world, and growing.
    This, I believe, can be done in places like Africa as well. 
Zimbabwe has the infrastructure. It has an educated population; 
has an energetic population, when given the opportunity to act. 
And if the private sector were invigorated and strengthened, I 
think you could see eventually incrementally, over time, 
changes in the right direction in the country.
    Mr. Smith. Do we know where Mnangagwa stands on the SADC 
issue?
    Ambassador Ray. Mr. Chairman, I don't think anyone but 
Mnangagwa knows where he stands on any issue.
    Mr. Smith. But is it something you think we should press 
with him?
    Ambassador Ray. I think we should press with him the return 
of the SADC Tribunal. As I said in my statement, we should 
reach out now to this government and lay out our wishes, if you 
will, or our vision for where things should go. And that, I 
think, should be one of the things on the list of to-do items.
    Mr. Smith. Okay. I appreciate that.
    Would anyone else on the panel want to address any of those 
questions?
    Yes.
    Mr. Freeth. Just briefly on the United Nations convention 
against torture. Zimbabwe is one of the very, very few 
countries around the world that has not signed that United 
Nations convention against torture. It is one of the few blank 
spots on the world map. And so, torture is able to take place 
in Zimbabwe without that U.N. convention coming into being. So 
that is something that we need to look at.
    Mr. Smith. Yes.
    Ms. Dendere. I was going to add that while the numbers are 
the people have been arrested for political engagement unclear. 
In the new dispensation, as it has been called, they remain 
quite a few people who are in prison for politically related 
protests. And the numbers are quite alarming when you look at 
women. But beyond that, there have been individuals who have 
been disappeared during the Mugabe regime, and those 
individuals we have not had any feedback from the government on 
whether they have been increase. In particular, Itai Dzamara, 
who disappeared a few years ago, President Mnangagwa at the 
time was the minister of justice and promised that there was 
going to be an inquiry and a hearing on where this man went, 
because his family has not been able to grieve for him to or 
bury him.
    And so such incidents is--it is really important for the 
government to address that. And if Itai Dzamara is alive, that 
he should be released; and if, God forbid, he has passed on, 
then his family deserves to know that as well.
    Mr. Smith. Last week, I chaired a hearing with Marco Rubio 
on Tibet. We cochair the China Commission. And from a trip 
there, many trips there in the past from work on China since I 
got elected to Congress in 1981, China is in a terrible, 
terrible race to the bottom with North Korea on human rights 
abuses. Xi Jinping has crushed religion, crushed NGOs that 
don't really exist, but any semblance of an NGO. And the 
consolidation of power harkens back to the Cultural Revolution.
    We know that General Chiwenga was in Beijing immediately 
prior the entire unfolding of the Mugabe situation. I wonder if 
any of you have any insights as to where China was or might 
have been in orchestrating or giving a wink or a push for his 
ouster. And in terms of good or bad governance, what is China's 
influence? We have had hearings on this subcommittee about 
China's bad governance rule of law model that it promotes. It 
is certainly not democracy. It is absolutely not human rights-
oriented. So if--perhaps, Ambassador, I think you are getting 
ready to respond.
    Ambassador Ray. Well, my experience with China, 4 years 
serving in China, and 3 years of dealing with my Chinese 
counterpart in Zimbabwe, first and foremost, what the Chinese 
look for in countries like Zimbabwe is their version of 
stability, because they are basically there to get access to 
resources. I would, and this is a wild guess, say that I don't 
think that necessarily it is Chinese-engineered or ordered or 
orchestrated, the change in government. But I would be quite 
surprised to find out that that was not part of the discussions 
that Chiwenga had with his counterparts when he was in China, 
and that the Chinese answer was probably ``Keep it simple. Get 
it done.''
    Mr. Smith. Okay.
    Yes, Ms. Lewis.
    Ms. Lewis. I think I would agree with Ambassador Ray that 
while it may not have been an overt push for the coup, that I 
am sure there was a seeking of approval or assertions that they 
wouldn't resist the outcome.
    I think more broadly, in looking at the Chinese development 
model, it is much more exploitative looking for resources, but 
also employment for Chinese workers. Chinese investment tends 
to not benefit the African economies. And so we should also be 
very aware and monitor Chinese actions.
    Of course, we know that the Chinese have been supporting 
the Mugabe regime for many years, hosting his birthday parties 
very lavishly, recipients of elephants being exported, things 
of that nature. And so it is certainly not a productive 
relationship in the way that we would like to see for democracy 
and human rights in Zimbabwe.
    Mr. Freeth. Just very briefly on the Chinese.
    It was quite interesting when, under President Mugabe, some 
of their diamond claims were taken away from them in the 
Marange diamond fields. And I happened to have breakfast with 
the European Union Ambassador just after that, and I said, Have 
you had any interaction with the Chinese Ambassador regarding 
this situation where the diamond claims have been taken away? 
And he said, Yes. And I asked, Well, what did the Chinese 
Ambassador have to say? And he said, Well, normally the Chinese 
Ambassador is inscrutable. But he said, In this case, it was 
very clear that he was absolutely mad about what had taken 
place.
    So whether that had contributed to Mugabe falling out of 
favor with the Chinese or not, we don't actually know. But they 
are about whatever resources they can get out of a country, and 
I don't--I suspect that that had something to do with it.
    Mr. Smith. Let me just ask. One of the Achilles heels in 
many elections everywhere is the election commission or 
electoral commission.
    What are the strengths or weakness, or is there an Achilles 
heel with the ZEC in Zimbabwe, as far as you know? We have 
raised this in hearing after hearing after hearing. If you 
don't get that right, if you don't have free and fair going in, 
people that will ensure that all the ballots are counted, that 
all the candidates who could be eligible and meet the--you 
know, a predetermined criteria are put on the ballot without 
arbitrarily being excised. How would you assess the ZEC?
    Secondly, the faith community, we know that on human 
rights, they had spoken out, whether it be the Catholic Church 
or the other Christian churches, very boldly on human rights 
abuses. Your thoughts on that? I know that the Catholic Church 
is talking about, you know, a sense of forgiveness because they 
so desperately, I think, want to see a transition to an all-
inclusive Zimbabwe, where everyone really feels a part of it. 
Your thoughts on the faith community and what role they should 
play.
    And, thirdly, we did invite, again, the administration to 
be here. Ambassador Yamamoto would most likely be the person 
who would be here to testify. And I think it is valid that they 
did say that with the trip coming up with Secretary Tillerson, 
he had to postpone. It is a matter of delay and not a ``I won't 
show up.''
    So we will have that hearing, but we are in a very tight 
window, with the anticipation of this election coming up. I am 
not sure how that gets pulled together in a credible way so 
fast. And are the election monitors AU, European American, 
others being invited to participate with, you know, on-the-
ground election monitoring in Zimbabwe?
    Ms. Dendere. This is something I can speak to very 
eloquently, because it is my area of expertise.
    So the first thing is that election monitors will come on 
invitation at the moment the President has indicated that the 
European Union could likely monitor elections, that it could 
monitor elections. But I think what is most important is what 
you have already pointed out, too. What happens with the 
Zimbabwe Electoral Commission? And this is where the new 
dispensation could be a problem for ZANU-PF.
    ZANU-PF was able to keep Robert Mugabe out because they had 
the support of Zimbabweans. They had the support of Zimbabweans 
because Zimbabweans are now primed to protest. In 2016, I was 
at home, and I attended about five different protests. We got 
tear-gassed, we were water-canned, and various things happened.
    But in the last week, we saw ZEC announce something they 
have never done before. They announced that we have had at 
least 5.2 million people register to vote out of the expected 7 
million. I think that the number is a little bit lower because 
we don't have diaspora vote. Of those 5.2 million that have 
registered to vote, 60 percent are young people under the ages 
of 40. Now, it is going to be very difficult for ZEC to oversee 
a stolen election. And I would show us back to the 2008 
election.
    The 2008 election, Zimbabweans knew that Morgan Tsvangirai 
had won. The world knew that Morgan Tsvangirai had won because 
what happened is that Zimbabweans were posting the results of 
the election as it went on. So it is--for me, it is not so 
important that we have physical monitors if the government puts 
up pushback on that. What is really, really important is that 
we support the civil service, the civil organizations that are 
working on elections right now.
    The young people, in particular, have created over 20 
organizations that are training Zimbabweans every single day on 
the importance of participating in elections. So the numbers 
that we received yesterday that say 5.2 million people have 
registered to vote are incredible.
    Now, the question is will the election be violent-free? We 
know that once there is violence, women, in particular, and 
young men will withdraw from the political process. 
    Mr. Freeth. Just on not so much ZEC, but on the way that 
the process takes place and intimidating people, particularly 
in the rural areas where I absolutely come from. What happens 
is the military, certainly in the 2008 election, came around in 
the runoff election after Morgan Tsvangirai was persuaded to 
have the runoff.
    What happened was the military came around from ward to 
ward, to every constituency. And at night, indoctrinated people 
and used torture and violence against people in a very brutal 
way so that by--and this is--this comes from China. This is a 
Maoist system of intimidation. So the whole ward is brought 
together in one central point, and everyone then is 
indoctrinated through the night. Various people are then 
pointed out as having sympathized in some way with the 
opposition. And those people are then tortured publicly in 
front of everyone else in the early hours of the morning. 
Sometimes very brutally, sometimes to death in front of the 
whole village within the ward.
    And then morning comes, and everything is peaceful. But 
what has happened also within that process is that, certainly, 
in our area, what was happening was people were divided up into 
groups of 10. And then each group of 10 had an order to go to 
the polling booth. And so if you were in the third group of 10, 
and you were third in your group of 10, you would be the 33rd 
person to vote at that polling booth. That is how regimented it 
was in 2008.
    So what we need is not observers that are just going to be 
there. We tried desperately to get the observers to come out 
from Harare. They refused to come. They said it was too 
dangerous for them to come out and actually witness these 
pungwes, as they are called. We cannot have that kind of 
situation happening again. At the moment what they are doing is 
saying ``remember 2008.'' It is not happening yet, but we need 
people to be brave enough from the international community to 
come and witness this kind of system so that it cannot happen 
in 2018.
    Ms. Lewis. On the ZEC question. Looking at the historical 
legacy of the institution, there will be considerable 
challenges to holding a free, fair, and credible election. But 
just a few points on where we stand with, at most, 5 months to 
an election.
    The voter registration exercise is continuing to be 
ongoing, though the blitz has ended. There still remain voter 
roll challenges, including deduplication auditing the list, 
things that have not been completed. And the ZEC has not 
published an operational plan to date for the elections, which 
would also include things like procurement of ballot papers and 
other very key technical elements of the electoral process.
    We also have the challenge of a new chair of the commission 
and despite some differing feelings about her personally, new 
leadership in any electoral commission so close to an electoral 
process is always a challenge.
    And then, finally, African election commissions usually 
require significant technical resources and the financial 
resources to hold free, fair, and credible elections. And last 
week, the AU did pledge to support that, because with only 5 
months left at most, I think it is a real uphill battle for the 
ZEC to be able to pull off a process that would meet 
international standards.
    Mr. Smith. Ms. Bass.
    Ambassador Ray. The only thing that I would----
    Mr. Smith. Oh.
    Ms. Bass. Go ahead.
    Ambassador Ray. Well, the only thing that I would add to 
that, I think having the international observers on the ground 
is important. But, as I learned in Sierra Leone in the 1990 and 
1996 elections there, the real important check on a lot of 
these issues is having local observers who are on the ground 
who understand the culture and the language, but also, that 
they have the freedom and ability to communicate what they see. 
And this is something that, particularly in Zimbabwe, is 
important, and that is, people having free access to means of 
communication, the ability to freely assemble and to get 
messages out.
    One of the things that we did when I was there as 
Ambassador, we were forced to do because of the hardliners' 
determination that I would not meet with too many groups of 
young people, is we started convening electronic meetings, 
which they found impossible to control or to interdict. This is 
an issue, I think, that needs to be looked at. Almost every 
Zimbabwean over the age of 16 has a smartphone with internet 
access and onboard camera. Mobilizing these people to observe 
and report, I think, would go a long way to at least 
discouraging some of the more egregious actions.
    Ms. Bass. Thank you, Mr. Chair.
    Following up on this, I believe, Ms. Lewis, you mentioned 
that the civil service organizations that are in--or that might 
have been Dr. Dendere. But the importance of, instead of having 
out-of-the-country election observers, having people who are 
there.
    So my question was is IRI on the ground now? And if so, are 
you doing the training with Zimbabweans? And if not, are you 
planning to?
    Ms. Lewis. In terms of observations, we have not--I don't 
believe, any American organizations have been accredited. I 
know that that is something that the Embassy is engaging on. 
However, we are conducting programming focused on civic and 
voter education, mainly through Zimbabwean partners. And, IRI, 
in general, would say that this kind of partnership with 
Zimbabweans to have local solutions to local problems is a 
priority. There are some really fantastic local organizations 
engaging in civic and voter education on the ground.
    I think one of the challenges they face is the very 
dramatic shift in the political landscape that has happened. 
And so, there are opportunities that exist that didn't exist a 
couple of months ago, perhaps you could say. And so, being able 
to help them mobilize mainly with resources, I think, is 
something that the U.S. and other international and regional 
partners need to look at in the months leading up this 
electoral process to make sure that Zimbabweans are fully aware 
of their rights and choices on election day.
    Ms. Bass. Thank you.
    Dr. Dendere, what more do you think is needed in terms of 
potential support from us?
    Ms. Dendere. I think strengthening the independence media, 
which I mentioned earlier. Access to information is really 
critical. For example, with Voice of America, I am often 
invited to be a panelist. And what I really like is that Voice 
of America allows Zimbabweans from very remote areas to call 
in. We have also seen a lot of participation through what is up 
on other social media platforms. But the internet is very 
expensive. But young people have come up with very creative 
ways to reach wider audiences. So these are things that 
certainly need to be taken care of.
    And I think Mr. Freeth is absolutely right that in rural 
areas where the fear of violence is very real, a lot of people 
still remember what happened before independence. They remember 
the violence of both the Smith regime and even the guerillas 
that we were fighting for freedom. So I think being able to 
work with organizations that educate people and their rights, 
how to report to the police when violence has occurred, and 
also how to hold the police accountable.
    So this is a really good time to work with the police, 
because the police is kind of on the outs. Their faction lost 
in the ZANU-PF war, so the government will be quite eager to 
hold them to account.
    Ms. Bass. So what do you think the prospects are for 
keeping the internet intact during this whole--you know, during 
the elections, whether or not it would be shut down?
    Ms. Dendere. So----
    Ms. Bass. Whether access would be shut--well, you know, 
that this happened in?
    Ms. Dendere. Yes. In 2016, Pastor Evan Mawarire and others, 
going back to Chairman Smith's question on religious 
organizations. Pastor Evan Mawarire and others called us 
together and called for a shutdown. We woke up in the morning. 
No one had any plans to leave home.
    I went for a run. I came back, and my phone wasn't working. 
But this is the brilliance of having a country of young people. 
As I was trying to figure out how to get online, people were 
wondering, Why aren't you online? And someone sent me a text 
message that said the internet is not working. They said, Well, 
do you know what VPN is?
    And even as we think about China as a problematic partner, 
young people in China were actually the ones sending VPN codes 
to young people in Zimbabwe.
    Ms. Bass. Wow. Really?
    Ms. Dendere. So within an hour, we were all back online. We 
had figured out--I still don't know how to use the VPN, but my 
16-year-old niece had put VPN on my phone. The shutdown was 
going on. And so--and even in my new research, I have been 
looking at the incidence of shutting down the internet across 
African countries, if the OPI has learned how to do that.
    But I think what also works with Zimbabwe is that the 
government officials really like being online. One of the first 
things that President Mnangagwa did when he came into office 
was to legitimize his Facebook page. So he had a live video. He 
had a live video and Twitter.
    So the way internet works is that they cannot shut it down 
for the rest of the country and keep it for themselves. So we 
just hope that their passion for being online will outweigh 
their needs to restrict our access for the rest of the country.
    Ms. Bass. That is very hopeful. That is a very hopeful 
sign.
    Mr. Freeth, did you have something you wanted to add to 
that?
    Mr. Freeth. Not really. I think the big difference between 
2008 elections and 2018 is this very thing, that everyone now 
has got a cell phone. Yes, in 2016, we all had that same 
experience, and it was incredible how people got around it, and 
how suddenly we were all able to be online when they are trying 
to switch us all off. So people make a plan. We are a country 
of people that make a plan.
    Ms. Bass. Well, you mentioned in your opening comments 
something about a decision that was going to be signed 
tomorrow, and I didn't know what you were referring to.
    Mr. Freeth. That is a decision in South Africa in the high 
court of South Africa from the judge president and two other 
judges who--we took a case against President Zuma, along with 
the law society and various other legal groups which aims to 
show that President Zuma's actions in signing away--or signing 
the new protocol to the SADC Tribunal which takes away the 
individual's rights to go to the SADC Tribunal makes the SADC 
Tribunal into an interstate court. So if Zambia and Zimbabwe 
had a dispute over an island in the Zambezi, for example, it 
could possibly be used for an interstate dispute.
    But that wasn't what the original protocol was all about. 
It wasn't what the SADC Treaty was all about. It is not what 
SADC, which is there to promote human rights, rule of law, and 
democracy is all about. And so when President Zuma signed that 
bit of paper, he did it without the cabinets' approval, without 
Parliament even looking at it, without a consultation of the 
people of South Africa.
    So we took a case against President Zuma to say that he 
acted unconstitutionally; that he acted against the SADC 
Treaty; that he had acted irrationally, in fact. And we are 
going to get that judgment tomorrow, and we are very hopeful 
that it will be a good judgment and it will set the tone for 
other SADC countries to then say, you are right, South Africa. 
Our President also did the same thing, and it was irrational 
and unconstitutional against the SADC Treaty.
    Ms. Bass. Thank you.
    Ambassador Ray, thinking about moving forward in U.S. 
policy, you know, you made a few comments about the carrot and 
stick. You talked about actions that I believe we could take to 
invigorate the economy, but you also specifically said you 
didn't see lifting sanctions. So I wanted to just ask you about 
that. I mean, you said, you know, the possibility of it if 
things got better. But, for example, we have travel sanctions 
against Mnangagwa. So what if the election is determined to be 
fair and free, should that be lifted? And then, how do we move 
our policy forward to help reinvigorate the economy if we also 
have the economic sanctions? You talked about the Korean 
example. And if we promoted something like that in Zimbabwe, 
then how would it be overseen?
    So I kind of wanted you to talk about, more specifically, 
how we would move forward in changing our policy as things 
develop, hopefully in a positive direction, in Zimbabwe.
    Ambassador Ray. Well, I will take the issue of sanctions 
first.
    The administrative sanctions against certain individuals, 
and Mnangagwa is on that list of individuals, seizes their 
assets here in the U.S., bank accounts and property, and limits 
their travel to the U.S., other than for U.N. events. I think--
--
    Ms. Bass. What about coming here to meet with the State 
Department?
    Ambassador Ray. I am sorry?
    Ms. Bass. What about--the human events is one thing. But 
what if he were to come here?
    Ambassador Ray. There are--the way it worked when I was 
there, if a Zimbabwean official was in New York at the U.N., 
and wanted to meet with someone in the State Department here in 
Washington, they apply for a special permission to do that. 
There are--it is a convoluted process, but there are ways to 
work it.
    While I am against a wholesale lifting of all of the 
sanctions, one of the things I argued vehemently for when I was 
Ambassador is a more flexible administrative sanctions regime. 
And I think that is what we should look at in case the election 
is free and fair, and we have a President Mnangagwa in July or 
August 2018, to allow a more--an easier process to enable us to 
engage him to the degree we should to try be able to push him 
in the direction we want him to go.
    And so, there is nothing in the administrative sanctions 
that says we cannot say--for example, say to a person, You are 
the President of the country. You can travel to Washington. You 
can travel to New York. And I think that is probably one way 
that we can, shall we say, tighten the screw.
    I once said to someone when I was asked if I was averse to 
twisting arms, I said, No, but I have to be able to take the 
hand first before I can twist the arm. And so I think we need 
to look at that.
    And other sanctions, when I talk about reinvigorating, or 
invigorating, if you will, the private sector, actually, the 
sanctions regime except for the fact that a couple of 
Zimbabwe's banks are on the list, shouldn't have an impact on 
that. There is a certain amount of two-way trade currently 
existing between our countries, and there are--I think FedEx, 
or one of the big packaging companies has a presence there. 
Ford has a presence there. Cargill is there. Coca-Cola is 
there. And several other American companies have presence in 
Zimbabwe, have investments in Zimbabwe. They are not that huge.
    But I think that if we looked at ways to strengthen the 
private sector contacts between nonsanctioned economic entities 
in Zimbabwe, and commercial entities here, you create a 
stronger middle class, which is a little harder to intimidate 
and to coerce.
    Ms. Bass. Thank you very much--oh, I am sorry.
    Go ahead.
    Ms. Lewis. Just to add one thing, in terms of the 
sanctions, in looking at, perhaps, some relief in that area, it 
is important that these elections be considered free, fair, and 
credible. But that is not the end point of, you know, what our 
conditions should be. Elections are just one point in the 
democratic process and the reform process. There are many, many 
other areas of governance and policy in Zimbabwe that need to 
be looked at to help ensure us that we are on the right path 
moving forward.
    Really, the elections we should be concerned about are the 
ones after the 2018 elections, when there is a more conducive 
political environment to free and fair competition. And so we 
should keep----
    Ms. Bass. Well, I agree with you in terms of these 
elections. As a matter of fact, in my opening comments, I 
stated that. Specifically, the reason why I asked is because of 
the President and because he is specifically named.
    But having said that, what is our policy moving forward? 
How do we--I mean, I would like to be hopeful. If it doesn't 
turn out in a hopeful way, then clearly we can stay with the 
status quo. But if it does, what is the pathway and what is the 
best thing for us to do?
    Ambassador Ray. I think that is why it is important that we 
engage, because in order to achieve this, everyone on the 
Zimbabwean side and on our side has to have a clear 
understanding of what it is we are asking or demanding, if you 
will, they do.
    Ms. Bass. Exactly.
    Ambassador Ray. And so that is why I think our application 
of the sanctions to individuals needs to be flexible to enable 
the degree of engagement that can achieve that. We need to sit 
down with them--well, we need to sit down with ourselves first 
and decide just what it is we want them to do----
    Ms. Bass. Right.
    Ambassador Ray [continuing]. So that we don't ask them for 
more than they are capable of giving but that we don't fall 
into the trap of accepting from them less than they are capable 
of giving.
    Ms. Bass. Right.
    Thank you. Thank you very much.
    Mr. Smith. And on that last point, Mr. Ambassador, that is 
exactly why we are having this hearing. We wanted to hear from 
four experts, people who have lived it and are knowledgeable, 
so that we could hopefully craft a good response. And our next 
hearing will be with the administration.
    Before you go, I do have just two final questions.
    If the other three panelists, if you would like to speak to 
the issue of the faith-based community, the clergy, what role 
they are playing. You know, in DR Congo, and I have been there, 
as a matter of fact, Greg Simpkins, who is now at USAID now--
Greg, we miss you--we have been to the DR Congo together, and I 
can tell you that the church plays a major role in elections, 
not just things of the spirit, humanitarian efforts, human 
rights advocacy, which they do so superbly well, but also, they 
do great work in the election area. Is that something that they 
are being brought in to in Zimbabwe?
    And, secondly, Zimbabwe gets a ``not free'' designation 
from Freedom House when it comes to press freedoms. Have you 
seen any amelioration of that stranglehold that Mugabe had on 
the media of all kinds? Is there maybe an opening, a little bit 
more independence, the ability of an editor to write an 
editorial that is more critical without fear, because that 
would be certainly a very positive trend line?
    Anybody want to address this?
    Ambassador Ray. I can't really speak too authoritatively to 
the circumstances after I left in 2012. 2009 to 2012, there was 
a little modification of the press space. There were a number 
of independent newspapers, not very super performers but at 
least they were there. There was at least one, perhaps two, 
radio stations that were independent.
    Where there was an absolute government iron fist was on 
televised--on television. One TV network in the entire country 
controlled by the government. So it was a mixed bag. I mean, 
you had independent print journals that weren't, in my opinion, 
very professional. You had a state-controlled newspaper. The 
only thing you could trust were the sports scores. The radio--I 
think, a lot of Zimbabweans, even in ZANU-PF, got a lot of 
their credible news from VOA and BBC.
    So there is a lot of work to be done there. And, again, I 
think, this goes to the whole issue of invigorating the private 
sector, because in order to be effective, the newspapers, the 
radio, or to set up an independent TV network, it requires 
money. And if you have a reasonably affluent middle class, you 
have a private sector that is growing, then you have the source 
of funds to be able to create these things. A lot of the 
independent newspapers, for example, were the toys of some 
wealthy Zimbabwean who had an ax to grind, and that is just not 
a--that is not a recipe for a very good professional 
independent press.
    Ms. Dendere. So on the faith-based communities, it is 
interesting to talk about the faith-based communities and 
corruption in one hand. So in my statement, I say that the 
single biggest problem for Zimbabwe is corruption. And how does 
this relate to the church?
    Over the last 5 years, we have seen an increase in 
evangelical changes that sometimes have 5,000 to 10,000 people 
showing up. But what we have also seen is that the church has 
been used as a football, in some ways, between the ZANU-PF 
factions. So in the last week, we have seen one of the most 
popular young prophets now being brought in on acts of 
corruption.
    Where I saw some green light was at Morgan Tsvangirai's 
funeral, where members of the Methodist church spoke very 
openly and said things that we haven't heard from the church in 
a long time. They say that since 2009, they were very involved 
in engaging with Morgan Tsvangirai on the unity government. We 
also saw Father Korneri (ph) playing an important role during 
the coup/non coup situation in November.
    So I think when the government does not punish people for 
speaking up, then even the church will be strengthened. But as 
long as Zimbabwe doesn't address its corruption, then every 
sector from the church to the media to the banks is in serious 
trouble, because now you had churches that were being used to 
funnel funds outside for ZANU-PF people. And then you can't say 
with certainty whether this church actually represents the 
interests of the people, or whether the church represents the 
interest of the individuals.
    So corruption is very epidemic, and it now affects every 
single facet of Zimbabwean life in very problematic ways. And 
so if we are able to address that, that could be a solution.
    And then on the independent media, the media is not free 
and fair. The Herald still controls the media. I doubt that 
they would publish that someone like--something that I would 
write, right? They wouldn't publish that regardless of how I 
feel about the government. And I think that is a problem.
    At the same time, we also have a lot of print media. But as 
the Ambassador has said, sometimes the quality is problematic. 
But I do want to highlight that the U.S. Embassy in Zimbabwe is 
doing amazing work working with journalists already. And as we 
transition to the next Ambassador, I hope that those programs 
will continue to receive funding. Beyond the work that the 
United States is doing, independent journalists have also been 
training themselves and being very engaged. But, again everyone 
I have spoken to is really worried that once this phase has 
passed, and if the government starts to feel that they are 
under threat, then maybe this veneer of freedom that we are 
seeing might be taken away so that--I mean, we are not sure 
what would happen with that.
    Mr. Smith. Yes.
    Mr. Freeth. I think you can be sure that the state media 
will report us all in the Herald and other more radical 
newspapers like the Patriot tomorrow or in the coming days. It 
is a foregone conclusion.
    As far as faith-based communities are concerned, the 
Christian community in Zimbabwe is huge. And there is no 
politician that can draw people like the churches can draw 
people. And so there has been a kind of--over the years, there 
has been--people have lost all kind of faith, as it were, in 
political transition. And it is the churches that have become 
the area of focus for people. And so, when Pastor Evan rose up 
and started for the first time as a church leader speaking out 
strongly, people just flocked to him. And what happened in July 
2016 was one of the most phenomenal things that I have ever 
been a part of.
    In the past, the church has been very afraid. But I think 
that cloak of fear is being gradually thrown off. And there are 
church leaders that are starting to stand up for justice issues 
and starting to talk about justice issues for the first time. 
And I think this needs to be really encouraged in a major way. 
I think it is exciting. I think it is very important that the 
church is able to be the moral voice of the nation, and I think 
it is starting to happen.
    Mr. Smith. I thank all of you for your tremendous 
testimony. Hopefully, we can take this and really have an 
impact in terms of policy, because your insights have been 
outstanding.
    I would just note parenthetically that Greg Simpkins, 
again, who is here, used to be our chief of staff on the 
subcommittee, and now Piero, who is our general counsel. In 
2015, they were in Zimbabwe and were called American spies by 
the media. You know, it reminds me, when I was in China on one 
of my human rights trips, Wei Jingsheng, the father of the 
democracy world movement, who spent about 20 years in the 
gulag, the loud guys they call it there, tortured horribly in 
China. When I met with him when he was let out briefly before 
getting rearrested, they interrogated him and said I was a CIA 
spy. One big lie. I mean, I am a Member of Congress. They're 
top staffers who have a huge impact. We do have a CIA, but we 
are not part of it. But it is amazing how they think that 
somehow it is a slur. And it is just like a boomerang that says 
what kind of media are you that would do that?
    Without objection, we have a number of testimonies for the 
record. This is from Craig Richardson, Dr. Richardson, and also 
the timeline of Mike Campbell, which has been provided, of 
course, in the Campbell case. Without objection, these will be 
made a part of the record. And if our distinguished witnesses 
would like to add anything to the record, please do. Just send 
it to us, and we will include it, because we want it to be as 
thorough as possible.
    Thank you so very much. The hearing is adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Note: The preceding document has not been printed here in full but may 
be found at http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=106914

                                 <all>
</pre></body></html>
